<html>
<title> - ADVANCED NUCLEAR TECHNOLOGY: SAFETY AND ASSOCIATED BENEFITS OF LICENSING ACCIDENT TOLERANT FUELS FOR COMMERCIAL NUCLEAR REACTORS</title>
<body><pre>[Senate Hearing 115-388]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-388
 
    ADVANCED NUCLEAR TECHNOLOGY: SAFETY AND ASSOCIATED BENEFITS OF 
   LICENSING ACCIDENT TOLERANT FUELS FOR COMMERCIAL NUCLEAR REACTORS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
 
 


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-793 PDF                WASHINGTON : 2018            
 
 
 
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 13, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     4
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     6

                               WITNESSES

Furstenau, Raymond, Director, Office of Nuclear Regulatory 
  Research, U.S. Nuclear Regulatory Commission...................     8
    Prepared statement...........................................    11
    Responses to additional questions from:
        Senator Barrasso.........................................    17
        Senator Markey...........................................    24
Taylor, Tina, Deputy Chief Nuclear Officer and Senior Director of 
  Research and Development, Electric Power Research Institute....    27
    Prepared statement...........................................    29
    Response to an additional question from Senator Barrasso.....    36
Williams, John B., Nuclear Fuels and Analysis Director, Southern 
  Nuclear Operating Company......................................    37
    Prepared statement...........................................    39
    Responses to additional questions from:
        Senator Barrasso.........................................    44
        Senator Markey...........................................    45
Back, Christina A., Ph.D., Vice President, Nuclear Technologies 
  and Materials, General Atomics.................................    46
    Prepared statement...........................................    48
    Response to an additional question from Senator Barrasso.....    53
    Responses to additional questions from Senator Duckworth.....    55



    ADVANCED NUCLEAR TECHNOLOGY: SAFETY AND ASSOCIATED BENEFITS OF 
   LICENSING ACCIDENT TOLERANT FUELS FOR COMMERCIAL NUCLEAR REACTORS

                              ----------                              


                      THURSDAY, SEPTEMBER 13, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Building, Hon. John Barrasso (Chairman 
of the Committee) presiding.
    Present: Senators Barrasso, Inhofe, Wicker, Ernst, Carper, 
Cardin, Whitehouse, Gillibrand, and Van Hollen.
    Senator Barrasso. Good morning. I call this hearing to 
order.
    Before we begin today's hearing, I would like to say just a 
few words about America's Water Infrastructure Act.
    This week we were able to reach a bipartisan agreement with 
the House of Representatives on major water infrastructure 
legislation. America's Water Infrastructure Act answers 
President Trump's call to address our Nation's aging 
infrastructure.
    In this instance, the bill fixes America's water 
infrastructure. It authorizes important projects to deepen 
nationally significant ports, upgrades levees and dams, 
maintains inland waterways and shipping lanes, increases water 
storage for the arid West, fixes aging irrigation systems, and 
enhances American made hydropower.
    This is also the most significant drinking water 
infrastructure bill in decades. It authorizes both new and 
existing programs that will gives States and localities the 
ability to better address their drinking water infrastructure 
needs.
    This legislation is especially important as Hurricane 
Florence threatens the East Coast. Provisions in this bill will 
boost flood control and increase water storage. Both are 
critical in the preparation for and response to major storms.
    The House of Representatives plans to pass the legislation 
today. Then the Senate can take it up and send it to President 
Trump for his signature.
    America's Water Infrastructure Act is a major 
infrastructure bill. It shows congressional commitment to heed 
the President's call for action on infrastructure. The next 
step is roads and bridges, surface transportation. I hope we 
can have the same bipartisan success when we address America's 
transportation infrastructure.
    I would like to thank Ranking Member Carper, Subcommittee 
Chairman Inhofe, Subcommittee Ranking Member Cardin, the House 
Transportation and Infrastructure Committee Chairman Shuster, 
and Ranking Member DeFazio for all of their hard work on this 
bill.
    At this time, I would like to invite Senator Carper for any 
additions you would make.
    Senator Carper. Thank you so much, Mr. Chairman.
    I want to second the words of praise you have offered for 
our colleagues in the House, for our colleagues sitting to our 
left and to our right, Senators Cardin, Inhofe, and all of our 
staff.
    People at home say to me--and I am sure they do in your 
States as well--why can't you just work together? Why can't you 
work together and get something done? One of the most important 
things we can do is create a nurturing environment for job 
creation and job preservation. A big piece of that is 
infrastructure. A big piece of transportation infrastructure is 
water infrastructure.
    Thank you, Mr. Chairman, for your leadership. It has been a 
pleasure to work with you and your staff and our colleagues and 
their staffs in this effort.
    As the Chairman mentioned, on Monday night we were able to 
reach an agreement with our counterparts in the House to 
advance America's Water Infrastructure Act of 2018, which the 
Chairman and I co-authored, with the invaluable help of both 
the majority and minority staffs of this Committee and our 
colleagues over the better part of this last year.
    As you may recall, our bill was reported out of this 
Committee unanimously 21 to 0 a couple of months ago, and 
hopefully, it will receive the same kind of support in the 
House later today and then in the Senate in short order.
    In the meantime, I would just like to highlight several 
especially noteworthy provisions in this bill that will make 
significant, positive differences in communities across the 
country, including many in my home State of Delaware, 
throughout the Delmarva peninsula, and well beyond our borders.
    For the first time in over 20 years this bill reauthorizes 
the program that provides Federal funding to States to help 
clean up the water our families drink every day. The crisis 
that unfolded in Flint, Michigan, several years ago was both 
tragic and avoidable. We have seen it play out since in far too 
many States across this country.
    In this bill, we are making clear that we have learned our 
lesson: that we need to devote more resources to the things 
that are most important, like making sure every parent--no 
matter what ZIP code they live in--can be confident that the 
water coming out of their tap is safe for their kids and them 
to drink.
    Not only does this bill reauthorize this program, but we 
actually double its funding by fiscal year 2021 to the tune of 
nearly $2 billion. Importantly, this legislation also allows 
States that detect contaminants in drinking water to assist 
residents who depend on private wells for their drinking water, 
rather than a public drinking water source.
    For example, one in six Delawareans--it is similar in other 
States as well--depend on private wells for their drinking 
water. It is just not right that if contaminants end up in 
their water, through no fault of the citizens or the residents, 
those residents have to find a way to rectify that situation 
solely on their own. That is just not fair.
    Our bill helps to change that by helping States test and 
treat underground sources of drinking water. Also of note, this 
bill authorizes investments in the waterways that keep this 
country moving, from the Ports of Wilmington to the Port of 
Mobile to the Port of New York and the Port of New Jersey.
    Over 99 percent of U.S. overseas trade volume moves through 
waterways that the U.S. Army Corps of Engineers maintains. 
Think of that; 99 percent. Our bill will help to improve and 
expand the harbors, channels, and ports on which our economy 
depends.
    With Hurricane Florence bearing down on the East Coast this 
week, I would be remiss if I did not briefly mention the 
important provisions in this bill that help coastal communities 
better prepare for increasingly powerful and frequently extreme 
weather events and enable those communities to rebuild more 
quickly after disaster strikes.
    Most notably perhaps, in light of the avoidable devastation 
and tragedy we saw in the wake of Hurricanes Maria and Harvey, 
our bill allows for the investment of $100 million in repairing 
drinking water systems damaged by storms. It creates new 
programs to protect this critical part of our infrastructure 
from damage due to extreme weather events going forward.
    While President Trump has made waves this week with his 
comments about his ``unsung successes'' in Puerto Rico where 
nearly 3,000 of our fellow Americans apparently lost their 
lives, we have been working hard to pass a bill that will help 
to ensure storm ravaged communities actually have the resources 
they so desperately need.
    There is much more in this bill that is worth highlighting, 
and I am sure there will be time to do so in the days and weeks 
to come.
    For now, I want to again thank our Chairman. I want to 
thank our colleagues, Senators Inhofe, Cardin and their staffs 
for their hard work throughout this process.
    I also want to thank our friends in the House, 
Representatives Shuster, DeFazio, Walden, and Pallone, who were 
great partners in the House.
    Together, we are stronger. When we are together, so is 
America stronger.
    Last, I want to thank Secretary R.D. James, who sat right 
here where you sit, Ms. Taylor, several months ago for his 
confirmation hearing to be the Assistant Secretary to head the 
Army Corps of Engineers, who made this legislation a real 
priority and worked with the Senators on this Committee to 
craft a bill that I think we can all be proud of.
    I will end with an African proverb that I think is 
particularly relevant here: ``If you want to go fast, go alone. 
If you want to go far, go together.''
    I think the fact that we have gotten a bill as substantive 
as this one to this point is proof that, in this Congress, if 
you want to get meaningful work done, you have to find some 
common ground and find ways to work together. Kudos to 
everyone.
    As we say in the Navy, when something good is happening, 
``Bravo, Zulu.''
    Thank you.
    Senator Barrasso. Thank you so much, Senator Carper, for 
all your cooperation. As you say, 21 to 0 in this Committee.
    Senator Inhofe, as Chairman of the Transportation and 
Infrastructure Subcommittee, is there anything you would like 
to add?
    Senator Inhofe. No, I don't think so, but one of the best 
kept secrets in America is that Oklahoma is navigable. The 
NCARNS, we have that reauthorization assured even though we 
have fallen behind. A lot of good things have not been 
mentioned that are a part of this.
    Senator Barrasso. Senator Cardin.
    Senator Cardin. I just really want to add that under 
Senator Barrasso's and Senator Carper's leadership, our 
Committee worked very constructively on this. Under Senator 
Inhofe, as Chair and Ranking Member, that was tradition in 
regards to the WRDA bill and was continued. I just wanted to 
acknowledge that.
    I also want to point out, Mr. Chairman, as I was walking 
over here, I was stopped by the National League of Cities. They 
wanted to lobby me on one issue, the passage of the WRDA bill. 
I gave a copy of the letter to Senator Carper.
    I also want to acknowledge Secretary James, when he was 
here, made commitments to visit some of our major facilities. 
He went to Poplar Island with me. His engagement on this 
process was extremely valuable.
    This bill--the Water Resources Development Act--is going to 
be important for our country. It is important in Maryland on 
the Chesapeake Bay and our efforts to clean up the Chesapeake 
Bay. It is important to Maryland for safe drinking water.
    The work that is done here is important to help our schools 
and public facilities with the vast connections with regard to 
pipes that will no longer contain lead. It is important for our 
economy and what it does in regard to the Port of Baltimore, 
and by the way, other ports around the country and around 
Maryland.
    I am very proud to be a part of this, and congratulations 
to all.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you to all of you.
    This morning we are here to examine the safety and other 
benefits associated with advanced nuclear fuels, known as 
accident tolerant fuels, ATF. Accident tolerant fuels are for 
commercial and nuclear power plants. These fuels have the 
potential to greatly increase the safety and performance in 
nuclear reactors.
    When loaded into a reactor, this technology would further 
protect uranium from melting if a plant loses the ability to 
cool the fuel. In the event of an emergency, accident tolerant 
fuels would provide significantly more time for power plant 
operators to prevent the release of radioactive material.
    Following the 2011 disaster in Fukushima, Japan, Congress 
established a research program at the Department of Energy to 
encourage the development of accident tolerant fuels. Seven 
years later we are approaching the critical window for nuclear 
power plants to reap the safety benefits of this technology.
    In addition to safety benefits, accident tolerant fuels may 
also provide meaningful economic benefits. For example, these 
fuels would allow nuclear power plants to generate electricity 
more efficiently.
    In doing so, the plants would reduce costs and generate 
less nuclear waste. To realize these benefits, these fuels must 
be developed, tested, licensed, and deployed commercially. The 
Nuclear Regulatory Commission plays the principle role in this 
process.
    The NRC has the exclusive authority to license and regulate 
the civilian use of nuclear materials. Approving new nuclear 
fuels can be a challenge. The fuel vendors must first test the 
fuel in rigorous experiments. The NRC then must validate the 
results of these tests through highly complex computer 
modeling.
    Finally, the NRC must ultimately license the new fuels for 
use in a power plant. The NRC, the Department of Energy, and 
the nuclear industry are all carefully considering ways to 
facilitate this work.
    In April of this year the NRC Commissioners held their 
first public briefing on what needs to get done prior to 
licensing these accident tolerant fuels. The briefing helped 
the agency staff to develop a project plan for regulating 
accident tolerant fuels, which the staff issued earlier this 
month. Yesterday the NRC staff held a public meeting on the 
plan.
    The private sector is also taking steps to deploy accident 
tolerant fuels on an aggressive schedule. Two fuel vendors have 
already loaded test materials into two reactors to gather 
critical data. This process is encouraging, though significant 
hurdles remain.
    One of the hurdles is the permanent closure of the Halden 
Test Center, which Norway announced earlier this summer. Since 
1958 the Halden Reactor provided critical information on 
nuclear fuels and materials to organizations within 19 
countries, including the NRC, the Department of Energy, and the 
American fuel vendors.
    The Halden Reactor would have provided key scientific data 
to assess the performance of accident tolerant fuels. The NRC, 
the Department of Energy, and the nuclear fuel vendors will now 
need to adjust their existing research plans. In spite of 
Halden's closure, it is imperative that the NRC and the private 
sector stay on schedule to make an accident tolerant fuel 
available commercially as soon as possible.
    The operating licenses for over a third of our Nation's 
nuclear power plants will expire between 2025 and 2035. If 
accident tolerant fuels are available, American energy 
utilities will be able to reap their safety and economic 
benefits.
    Such benefits may encourage utilities to make multiple, 
multi-million dollar investment decisions to extend the 
licenses for these nuclear power plants. These new technologies 
would also help keep Americans employed. That includes workers 
in my home State of Wyoming, which produces more uranium than 
any other State in the country.
    Preserving America's nuclear fleet is not only good for the 
economy, but is also good for the environment. Nuclear power 
provides a source of clean energy to millions of American 
families and businesses.
    As this week's issue of The Economist explains, ``Some 
environmental activists don't like this source of zero carbon 
energy, but nuclear power still provides more than twice as 
much electricity globally as wind and 5.5 times as much as 
solar.''
    I look forward to the discussions this morning.
    I will now turn to Ranking Member Carper for an opening 
statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. I want to apologize to our witnesses. 
Normally, we call this a hearing, and that is for us to hear 
from you. Please bear with us as you hear from us for just a 
few more minutes, and then we will put on our listening ears.
    Again, Mr. Chairman, thanks so much for convening this 
important hearing on advanced nuclear technologies, 
specifically accident tolerant fuels. I spent a lot of years in 
my life in the Navy and have a huge appreciation for nuclear on 
ships and submarines.
    We were scheduled to have the christening of the USS 
Delaware, a fast attack, junior class nuclear submarine in 
Newport News this Saturday. It has been postponed until October 
for obvious reasons. I am one who fully realizes and 
understands the importance of nuclear energy done well and done 
safely.
    I know my colleagues have heard me say this before, but I 
will say it again: I believe there are few environmental 
challenges more serious than climate change and the extreme 
weather associated with it.
    Our leading scientific agencies, NOAA and NASA among them, 
tell us that climate change is causing rising global 
temperatures, rising sea levels, and extreme weather events. We 
witness them almost every month, sometimes every week. Weather 
events, like the massive Hurricane Florence, is expected to 
strike the East Coast in the next few days and threaten the 
lives and well being of millions of Americans.
    NOAA also tells us that extreme weather events that have 
cost our country more than $1 billion apiece have doubled in 
frequency over the past decade, with $425 billion in losses 
occurring over the last 5 years. That is $425 billion with a B. 
Think about that.
    Whether it is a drought, a forest fire in the West, a 
hurricane or a massive flood in the East, climate change 
results in lost income, damaged properties, and sadly, in some 
cases, lost lives.
    As we send up prayers for those who live in Florence's path 
and who are preparing for this massive storm, our Federal 
Government has a moral responsibility, not only to help our 
communities be better prepared for climate fueled events, but 
to also address the root causes of these events.
    To some of our friends across the aisle who are not yet 
ready to join the rest of us in addressing climate action, let 
me note that nuclear power is one of the many examples of how 
our Nation can combat climate change, and at the same time, 
grow our economy.
    I want to say that again. Let me note that nuclear power is 
one of the many examples of how our Nation can combat climate 
change, and at the same time, grow our economy. We can do both, 
and we must.
    When nuclear power is produced responsibly, it does not 
emit carbon and reduces our reliance on fossil fuels. Our 
country can--and should--seize the opportunity to continue to 
use nuclear energy in our national energy mix.
    Today, nuclear power provides about 20 percent of our 
Nation's energy, as well as 60 percent of our carbon-free 
electricity, but as we know, the nuclear industry still faces 
many challenges. We need to make sure reactors operate well and 
safely, especially in the event of extreme weather.
    Take what happened in Fukushima: nuclear power can lead to 
devastating circumstances if the proper safety precautions are 
not in place, not up to date, or not adhered to. Safety must 
always be the top priority in our country's approach to 
improving nuclear energy.
    Today's costs for safety precautions at existing reactors, 
along with the costs of construction, operation, and 
maintenance, can be expensive, especially when compared to the 
cost of other sources of energy, such as natural gas.
    Fortunately, recent advancements in science allow us to 
build and operate advanced nuclear technology that is safer, 
cleaner, and cheaper. If we are smart, we will replace our 
aging nuclear reactors with this new technology.
    As we will hear today, advanced nuclear technology could 
improve the safety and efficiency of our existing reactors over 
the next 5 years. Using new materials for our nuclear fuel rods 
in our existing reactors, known as accident tolerant fuel, may 
allow our existing reactors to avoid the danger of overheating 
during emergency situations, which is what happened at 
Fukushima.
    At the same time, accident tolerant fuel could enable our 
current fleet of nuclear reactors to run more efficiently, and 
therefore, be more cost competitive. This is situation in which 
it is possible to do well and do good at the same time.
    My colleagues know that I love win-win situations. They do, 
too. Accident tolerant fuel has the potential to be a great 
win, not only for the fight against climate change and severe 
weather, but for industry, American jobs, and most importantly, 
the safety of the American people. We might want to think of 
this as a win-win-win-win situation.
    As companies make advances in technology, we need to make 
sure that our regulatory framework keeps pace. The Nuclear 
Regulatory Commission, NRC, is still considered the world's 
gold standard of nuclear regulatory agencies.
    As science and technology evolve, so too must the NRC. 
However, as I said before, we cannot afford to cut corners when 
it comes to nuclear safety. I am interested--and I think we are 
interested--in hearing today how the Federal Government can 
ensure all the design testing needed is completed expeditiously 
to help inform the NRC licensing process.
    We also need to make sure that the NRC has the resources it 
needs to review these new technologies and to ensure that our 
current nuclear reactor fleet remains safe.
    In closing, let me add that I strongly believe Congress has 
a critical role to play in ensuring that our Nation invests 
wisely in clean energy. That includes finding ways to support 
advanced nuclear technologies, which allow our reactors to be 
safer, more resilient, and more efficient.
    Advances in nuclear energy can help us attain a more 
nurturing environment for job creation along with cleaner air 
for our people and planet. That is a pretty good combination, 
one which most Americans would like to see us embrace, and I 
hope we will do just that.
    Thank you so much.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe. Mr. Chairman, let me just make one comment.
    We have been fighting this battle for a long time now. We 
know how long it takes new technology to move. When you look at 
countries like France and China, we have to figure out a way to 
do it faster. It is obviously an answer that we need to 
exploit.
    Regretfully, we have all this competition for committees 
this morning, and I will not be able to stay, but to me, there 
is no single issue that is more important than this, further 
exploiting the opportunity to come up with the clean energy 
that is offered through our nuclear efforts.
    Senator Barrasso. Thank you, Senator Inhofe.
    Thank you and welcome to all of our witnesses. We are 
delighted that you have joined us here today.
    Today, we are joined by Raymond Furstenau, Director, Office 
of Nuclear Regulatory Research, U.S. Nuclear Regulatory 
Commission; Tina Taylor, Deputy Chief Nuclear Officer and 
Senior Director of Research and Development, Electric Power 
Research Institute; John B. Williams, Nuclear Fuels and 
Analysis Director, Southern Nuclear Company; and Dr. Christina 
A. Back, Ph.D., Vice President, Nuclear Technologies and 
Materials, General Atomics.
    I want to welcome all of you. I want to remind you that 
your full written testimony will be submitted for the official 
record. If you could, please keep your statements to 5 minutes 
so that we have time for questions.
    I look forward to hearing your testimony if we could start 
with you, Mr. Furstenau.

  STATEMENT OF RAYMOND FURSTENAU, DIRECTOR, OFFICE OF NUCLEAR 
    REGULATORY RESEARCH, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Furstenau. Good morning, Chairman Barrasso, Ranking 
Member Carper, and distinguished members of the Committee.
    My name is Raymond Furstenau. I serve as Director of 
Nuclear Regulatory Research at the U.S. Nuclear Regulatory 
Commission. I am pleased to be here today to report to you on 
the status of our preparations to license the safe use of 
accident tolerant fuels.
    I would like to start this morning by highlighting the 
NRC's commitment to enhancing our regulatory infrastructure to 
facilitate the safe use of new technologies.
    A recent example of success in this area is the licensing 
of new facilities using novel technologies for the production 
of medical isotopes, an issue of national interest due to 
periodic shortages of material used in diagnostic medical 
procedures for millions of Americans each year.
    Accident tolerant fuel, or ATF, is another area of new 
technology, which has the potential to enhance safety at U.S. 
nuclear power plants. ATF is a category of new fuels for 
nuclear reactors that are expected to perform better than 
currently licensed fuels under transient and accident 
conditions.
    The fuel in use today at U.S. nuclear reactors is comprised 
of uranium dioxide pellets, encased in a metallic cladding 
fabricated from a zirconium based alloy, and has remained 
largely the same over the past several decades.
    This is a plastic mock up of a fuel rod. This is a little 
bit larger in diameter than an actual fuel rod. Inside the rod, 
the cladding is zirconium based. The uranium dioxide pellets 
are stacked in the fuel rods. In an actual reactor, active fuel 
is about 12 feet in length. There are hundreds of elements in a 
fuel assembly and about tens of thousands of these individual 
rods put into assemblies in a nuclear reactor.
    We expect that near-term ATF designs, defined as the 
concepts that industry is pursuing for deployment by the mid-
2020s, will have relatively small departures from today's 
nuclear fuel designs.
    These small departures include specially designed additives 
to standard fuel pellets and robust coatings applied to the 
outside diameter of standard claddings intended to reduce 
corrosion, increase wear resistance, and reduce the production 
of hydrogen under high temperature, accident, conditions.
    Nuclear fuel designs with an iron based alloy cladding, 
also offering improved corrosion resistance, will likely be 
submitted for NRC review shortly following these near-term 
designs.
    In the longer term, we expect ATF concepts to be submitted 
for NRC review that utilize new fuel pellet materials that 
operate at lower temperatures than current uranium dioxide fuel 
pellets, and ceramic silicon carbide cladding, which 
potentially offers significantly improved performance under 
high temperature conditions.
    We also expect solid metallic fuel ATF concepts, which 
offer lower operating temperatures and decreased consequences 
of cladding breaches, to be submitted for NRC review in the 
years ahead.
    To varying degrees, each of these ATF designs is expected 
to offer power plant operators more flexibility in how they 
operate their plants and provide more robust performance during 
normal operations and under potential accident conditions.
    Most notably, ATF designs may enhance the ability to 
mitigate accidents due to the additional time available to 
plant operators prior to the onset of potential fuel damaging 
conditions. ATF designs may also have the ability to reduce the 
amount of high level waste produced by operating reactors by 
permitting extended operation of fuel assemblies in the reactor 
core.
    While the NRC can license these new fuels under the current 
regulatory structure, we are taking steps to make our processes 
more efficient and effective. To that end, the NRC has 
developed a project plan to prepare for both near-term and 
longer-term ATF designs. The plan addresses the complete fuel 
cycle, including fuel fabrication, fresh fuel transport in 
reactor requirements, and spent fuel storage and 
transportation.
    Throughout development of the plan, we have had extensive 
engagement with our stakeholders including licensees, nuclear 
vendors, industry groups, non-governmental organizations, and 
our international counterparts. Some of those stakeholders are 
on the panel today.
    The plan outlines a new regulatory approach to fuel 
licensing, in which the NRC is seeking engagement with 
potential ATF applicants much earlier in the research and 
development phase than it has in the past.
    This early engagement is designed to identify potential 
safety issues as early as possible so they can be addressed and 
the overall safety conclusions can be reached within the 
planned licensing timeline.
    Throughout our preparations, we are monitoring the 
Department of Energy's efforts to advance the technical basis 
of ATF, both experimentally and computationally. This close 
coordination is allowing the NRC and DOE to make progress 
despite the closure of an internationally funded nuclear fuel 
and materials research facility, the Halden Reactor in Norway.
    The NRC and DOE staffs are also working on ways to leverage 
DOE's testing capabilities and computational tools for use in 
reaching our safety findings for ATF designs without 
compromising the agency's regulatory independence.
    In conclusion, with the issuance of the staff's ATF project 
plan and the heightened engagement of nuclear fuel vendors, 
DOE, and licensees, I believe the NRC has positioned itself 
well to efficiently license the safe use of ATF.
    Thank you.
    [The prepared statement of Mr. Furstenau follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. Thank you very much for your testimony. 
We will have questions in a little bit.
    I would now like to turn to Ms. Taylor.
    Thank you very much for joining us today.

  STATEMENT OF TINA TAYLOR, DEPUTY CHIEF NUCLEAR OFFICER AND 
  SENIOR DIRECTOR OF RESEARCH AND DEVELOPMENT, ELECTRIC POWER 
                       RESEARCH INSTITUTE

    Ms. Taylor. Good morning, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee.
    My name is Tina Taylor. I am a Senior Director for Research 
and Development and Deputy Chief Nuclear Officer at the 
Electric Power Research Institute, EPRI. I am pleased to be 
here today to talk with you about EPRI's research related to 
accident tolerant fuels.
    EPRI conducts research and development relating to the 
generation, delivery, and use of electricity for the benefit of 
the public. An independent, nonprofit organization, EPRI brings 
its scientists and engineers, as well as experts from academia, 
government, and the industry, to help address challenges 
related to electricity, including reliability, efficiency, 
affordability, health, safety, and the environment.
    EPRI's members represent approximately 90 percent of the 
electricity generated and delivered in the United States, 
including all of the U.S. nuclear reactor operators.
    For the past 30 years EPRI has conducted research on 
nuclear fuels for greater reliability, safety, and performance. 
Our research on ATF is focused on evaluating the safety and 
economic benefits. While we are not currently developing any 
ATF technologies, our work is informing strategic 
decisionmaking for ATF implementation.
    Accident tolerant fuels have the potential to offer safety 
and environmental benefits with more resilient and efficient 
fuel and plant performance. Key improvements in ATF are higher 
melting temperatures, improved strength and toughness, reduced 
hydrogen generation, and better confinement of nuclear 
materials during postulated off-normal events. Additionally, 
ATF may also improve the underlying economics.
    Getting these new technologies from design to 
implementation is challenging and involves the collaboration of 
many organizations. As you are hearing today, there is 
currently great collaboration underway between DOE, NRC, fuel 
vendors, industry, plant operators, the National Labs, EPRI, 
and others.
    EPRI's research is focused on how ATF performance 
improvements translate into providing more plant resilience to 
off-normal events and economic benefits during normal 
operation.
    In 2017 EPRI performed an initial assessment of ATF. The 
performance of ATF concepts was evaluated for a number of 
scenarios. The work concluded that safety benefits do exist and 
vary among different ATF designs and plant designs.
    Some ATF concepts may have mitigated the Three Mile Island 
II accident. Other accident scenarios we evaluated showed that 
accident tolerant fuels have the potential to provide 
additional coping time.
    A critical metric for decisionmakers is ATF deployment 
timeframes. The sooner these ATF concepts can be deployed, the 
sooner the safety and economic benefits will be realized. 
Historically, the licensing of new fuels and cladding has taken 
upwards of 20 years.
    EPRI is researching approaches that could shorten this 
timeframe. Advanced modeling and simulation with modern data 
collection methods may be useful to reduce the number of time 
consuming and costly tests that are needed. Development of new 
examination techniques may allow quicker results from the tests 
that are performed.
    In conclusion, accident tolerant fuels have the potential 
to provide increased safety margins over current nuclear fuels 
while also providing enhanced fuel reliability, improved 
economics, and reduced high level waste generation. Working 
collaboratively with the other stakeholders, EPRI will continue 
to conduct technical evaluation of accident tolerant fuels in 
order to provide information needed to establish criteria, 
provide safety analysis, and identify economic benefits.
    I thank you for the opportunity to testify this morning. I 
am happy to answer your questions.
    [The prepared statement of Ms. Taylor follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. Thank you, Ms. Taylor. I appreciate your 
testimony.
    Mr. Williams.

   STATEMENT OF JOHN B. WILLIAMS, NUCLEAR FUELS AND ANALYSIS 
          DIRECTOR, SOUTHERN NUCLEAR OPERATING COMPANY

    Mr. Williams. Good morning.
    I am John B. Williams, Nuclear Fuels and Analysis Director 
at Southern Nuclear Operating Company and am a member of the 
Nuclear Energy Institute's Accident Tolerant Fuel Working Group 
led by Mr. Danny Bost, Executive Vice President and Chief 
Nuclear Officer of Southern Nuclear.
    Southern Nuclear, a subsidiary of the Southern Company, 
currently operates six nuclear reactors in Alabama and Georgia. 
Southern Nuclear embodies the Southern Company's commitment to 
creating America's energy future by developing new products and 
services for the benefits of consumers through technological 
innovation.
    As such, we are proud to be taking a leadership role in the 
development and testing of accident tolerant fuel.
    It is an honor to appear before this committee to share my 
views on the benefits of accident tolerant fuels and how we can 
overcome the development and licensing challenges before us.
    I thank Chairman Barrasso, Ranking Member Carper, and the 
Committee members for taking the time today to discuss this 
pivotal technology that has the potential to make our Nation's 
nuclear fleet more reliable and efficient, as well as enhance 
its safety.
    America's nuclear power plants run 24 hours a day, 7 days a 
week, providing 20 percent of the Nation's electricity and 
nearly 60 percent of its clean, emissions-free power. The 
nuclear fleet is a vital part of America's infrastructure and 
is essential to a reliable and resilient national grid.
    The sustainability of the U.S. nuclear fleet will depend, 
in large part, on the industry's ability to innovate at a pace 
which will allow the plants to remain economically competitive 
with other rapidly advancing energy technologies.
    One such innovation is accident tolerant fuels. ATF has 
shown potential to increase safety as well as increase fuel and 
system efficiency and performance.
    The industry is making investments and moving forward. 
Southern Nuclear loaded two kinds of ATF cladding in our Hatch 
plant in February 2018. In 2019 three major fuel vendors in the 
ATF program plan to insert additional lead test assemblies in 
reactors operated by Southern Nuclear and Exelon Generating.
    The results of this testing, and other tests being 
conducted by the Department of Energy, will provide fuel 
performance data and inform NRC fuel licensing. Testing and 
licensing activities will be conducted in parallel, which will 
help to accelerate the development timeline toward the goal of 
beginning batch loads of ATF fuel in commercial reactors by 
2023 and full deployment by 2026. This timing is intended to 
support utility decisions regarding second license renewal.
    The industry is appreciative of the NRC's plan to license 
fuel in an innovative way, while maintaining the highest levels 
of safety. Additionally, we are greatly benefiting from the 
DOE's National Lab's vast expertise and world class testing, 
modeling, and simulation capabilities.
    We are grateful for the close attention and support 
Congress has provided to ATF and for its recognition that this 
program represents the cutting edge of innovation that will 
help preserve America's technological and strategic leadership.
    I, like you, Senator Carper, like win-wins. The successful 
development of accident tolerant fuel has the potential to 
provide a win for everyone, safety, the environment, consumers, 
and plant operators by making light water reactors safer as 
well as more efficient and reliable.
    In the process, if we develop a model for the 
transformation and modernization of the regulatory framework 
for nuclear plants, even better. For this to become a reality, 
we all--industry, regulators, the Department of Energy, and 
Congress--must continue to work together without delay.
    Thank you.
    [The prepared statement of Mr. Williams follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
  
    
    Senator Barrasso. Thank you so much for your testimony, Mr. 
Williams.
    Ms. Back.

STATEMENT OF CHRISTINA A. BACK, PH.D., VICE PRESIDENT, NUCLEAR 
          TECHNOLOGIES AND MATERIALS, GENERAL ATOMICS

    Ms. Back. Senators Barrasso and Carper, thank you for your 
invitation to appear. I am pleased to discuss our perspective 
on NRC's approach to accident tolerant fuel licensing.
    We believe the NRC must be prepared to license new fuels 
and claddings in the most timely way, while also ensuring that 
public safety is not undermined. To stop the premature shutdown 
of existing reactors, there is no time to waste.
    In response to Fukushima, Congress appropriated funding for 
the ATF program to support the development of a new breed of 
nuclear fuels and claddings that provide enhanced safety 
margins.
    In the 6 years since, significant progress has been 
achieved by three separate industry teams supported by the 
Department of Energy. The Westinghouse-General Atomics team is 
one of those. We are pursuing a highly innovative ATF 
technology offering markedly enhanced safety features and 
significantly improved economics for existing reactors.
    It will do so by allowing operation at higher power and for 
longer periods of time, thus enabling fuel recycles that can 
last as long as 2 years, compared to the 18 months now 
possible. Higher efficiency and less maintenance down time mean 
a more economically competitive reactor.
    Consequently, many utilities have been strongly supportive 
of the development and expeditious deployment of these new 
fuels. GA is developing the cladding material, made from a 
novel advanced silicon carbide ceramic composite. The material, 
named SiGA, was initially developed for our innovative Energy 
Multiplier Module, EM \2\, an advanced high temperature, gas 
cooled, small modular reactor concept.
    We believe the future of nuclear energy depends heavily on 
developing the new materials such as those that survive much 
higher temperatures and are much less chemically reactive. That 
is why we have invested significantly in SiGA material that 
safely can withstand temperatures of up to 1,800 degrees 
Celsius compared to metal claddings, such as Zircaloy, that 
start to fail around 800 degrees.
    I am holding an example of a rodlet that will be inserted 
next year into the Advanced Test Reactor at the Idaho National 
Lab. It will undergo irradiations that will provide important 
data on the cladding performance in realistic reactor 
conditions.
    Incredibly, we make this cladding starting from silicon 
carbide fiber. It is very flexible. The process we use creates 
a kind of rebar into our material, transforming it from a 
brittle ceramic into a fracture-tough material. Our results are 
very promising, and if they hold up, we will revolutionize the 
industry.
    Ultimately, the same technology can be used in our EM \2\ 
and other advanced reactors. Whether for ATF or advanced 
reactors, we must modernize our licensing processes before the 
reactors are lost.
    I view the ATF licensing as a key step toward establishing 
good practices for advanced reactor licensing. Modernization 
means we will develop new and accelerated NRC processes without 
compromising the NRC's high safety standards. We must do this 
quickly.
    For example, GA is developing a new methodology that we 
call Advance Fuel Qualification, AFQ. The idea, supported by 
DOE for funding, is to leverage computer modeling and 
simulation to reduce the amount of data needed for licensing.
    Regardless of whether this methodology or another is 
implemented, early and sustained NRC involvement is key. I am 
pleased to see that the NRC draft project plan for the ATF 
recognizes that the past licensing path, which relies primarily 
on empirical data for fuel performance, cannot be the way of 
the future.
    Good progress in licensing has been made for near-term 
technologies such as the metal coated claddings, but we also 
have to achieve the same progress for our long-term 
technologies, the more innovative technologies like ours that 
will require different assessments and regulations.
    Since our SiGA cladding is a ceramic and not a metal, this 
revolutionary technology will be delayed until the NRC develops 
technical acceptance criteria for licensing approval. The good 
news is that the longer term technologies may be available only 
2 to 3 years after the near term if the NRC moves promptly on 
them.
    We welcome engagement with the NRC so that we can assist 
them fully in understanding these materials so they can develop 
their validation plan and license in the most timely and safe 
fashion.
    We have been using technologies in the nuclear industry 
that is over 60 years old. It is time that we adopt new 
technologies, particularly those from materials sciences, not 
because it would be nice to have, but because they are needed 
for our industry's survival.
    To be successful, the NRC, DOE, and industry must work 
closely together. If we do, we will find new ways to produce 
nuclear energy safely, cleanly, and at a much lower cost.
    We hope this Committee will use its oversight and 
legislative powers to ensure that the NRC continues to design 
the new procedures it needs to license new technologies. Please 
visit San Diego. Seeing the fabrication in action will bring 
home to you the clear example of how ingenuity can transform 
the nuclear industry.
    I thank you for your interest and support.
    [The prepared statement of Ms. Back follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Senator Barrasso. Thank you for your testimony. There is an 
open invitation now to San Diego. Thank you.
    I appreciate the testimony from everyone.
    Mr. Furstenau, let me start with you.
    Hurricane Florence is rapidly approaching the southeastern 
United States. One of the news stories today showed a map of 
North Carolina where the nuclear power plants were by the 
coast.
    Will you update us now on how the NRC nuclear power plants 
and other NRC licensed facilities are preparing for the 
hurricane?
    Mr. Furstenau. Thank you for the question, Senator 
Barrasso.
    Based on available information, the impacts from the storm 
surge, winds, and flooding at Brunswick and other plants in 
Florence's path will fall well below the plant design 
parameters. One reactor at Brunswick has started shutting down. 
Both Brunswick reactors are expected to be fully shut down 
hours before hurricane force winds could affect the site.
    All U.S. nuclear power plants have the additional resources 
like pumps, generators, and procedures required by the NRC 
after the Fukushima accident to maintain key safety functions 
during any severe event like this. Available information 
indicates that the plants can remain safe during the storm 
without the post-Fukushima equipment.
    NRC inspectors are at every U.S. operating power plant, 
following normal agency procedures. Additional inspectors have 
been dispatched to the plants in the storm's path. The NRC will 
continue to observe the plants' response in the storm and its 
aftermath.
    Senator Barrasso. We appreciate that update. Thank you. It 
is very reassuring.
    Moving to the topic of discussion today, last year the 
Nuclear Regulatory Commission established an Accident Tolerant 
Fuel Steering Committee. The steering committee just issued the 
first version of a project plan for the licensing of the 
accident tolerant fuels.
    The plan serves as the strategic document for NRC and the 
private sector to make accident tolerant fuels commercially 
available. The plan includes multiple benchmarks and goals for 
timely action by the NRC staff.
    Do you believe the NRC can adhere to the scheduled outline 
in the steering committee's plan, and will you commit to 
notifying the Committee if the NRC is unlikely to achieve its 
benchmarks?
    Mr. Furstenau. Mr. Chairman, the NRC is committed to that 
plan, and we do believe we can meet the milestones in that 
plan. Of course, it is a living document, and I think the other 
panel members would agree that if there are things that come up 
during the progress on the plan that need to be changed, we 
would do that with full and open participation of the 
stakeholders.
    Senator Barrasso. Thank you.
    Ms. Taylor, the Electric Power Research Institute is 
uniquely positioned as an independent, non-profit organization, 
to collaborate on accident tolerant fuel research. We 
appreciate that.
    Can you explain how your organization's independence can 
give policymakers and the public greater confidence about the 
research the NRC, the Department of Energy, and commercial fuel 
vendors are conducting on accident tolerant fuels?
    Ms. Taylor. Yes. An example of that would be the work we 
have done initially to assess the potential ATF concepts where 
we have used modeling capabilities we have to model how those 
fuels would perform during normal operation and during accident 
scenarios.
    That provides a base of information that is non-biased that 
people can use for decisionmaking.
    Senator Barrasso. Thank you.
    Mr. Williams, can you explain how the economic benefits of 
accident tolerant fuels could encourage utilities to renew 
licenses for existing nuclear reactors?
    Mr. Williams. Yes, sir. As utilities reach the end of their 
operating license, they are beginning to evaluate whether or 
not to make the significant investment of whether or not we 
will renew our operating license.
    There are a number of factors involved. One is the cost of 
the energy that we will bring to the market and the available 
market for that. If ATF is able to provide the economic 
benefits it shows, then it makes our plants more effective and 
improves the business case by which we would make those 
decisions.
    Senator Barrasso. Dr. Back, General Atomics is developing a 
particularly innovative accident tolerant fuel. I understand 
the new fuel would be suitable for today's commercial light 
water reactors as well as tomorrow's advanced reactors.
    Will you describe how this fuel differs from accident 
tolerant fuels that other commercial vendors are currently 
developing?
    Ms. Back. Thank you.
    The material we are working with is actually something you 
could not have made 20 years ago. This is a ceramic, like your 
coffee mug, which is very good at retaining the fuel. In this 
particular case, because we have the fibers inside, it acts 
like rebar cement. That is what we call fracture-tough.
    Very important in these future scenarios to give added 
safety margins is it goes up to very high temperatures. In 
fact, this material does not melt. That is why the temperature 
difference is so vast between metals and ceramics.
    Also, it retains re-coolable geometry. This fuel, in an 
accident, would not breach in the same way that a metal would. 
Different metals have different behaviors than ceramics. These 
materials can increase the performance.
    Senator Barrasso. Let me follow up with that, if I can, the 
difference between near-term and long-term. How is the NRC's 
project plan addressing both, the near-term use of accident 
tolerant fuels as well as longer term proposals like those that 
General Atomics is developing?
    Ms. Back. The plan has been very nice because it lays out 
by category, for instance, thermal hydraulics, burn up, and so 
on. The key difference, I think, is that for many of the near-
term concepts, Zircaloy is still the metal cladding that is 
providing most of the function. There is a coating on top to, 
for instance, decrease the hydrogen generation.
    Fundamentally, that does not change the properties of the 
cladding to allow it to have a higher margin in safety. The 
fact is that we go up to much higher temperatures, can have a 
coolable geometry, have orders of magnitude less in hydrogen 
generation, and the corrosion is much different. In Fukushima, 
there was an exothermic reaction, which is what caused the 
hydrogen production. That would not happen with this material.
    Those are the kinds of things that now require different 
fuel performance calculations because the material is 
fundamentally different. Those calculations have to be included 
in the regulations and taken into account. The full benefits 
will actually be seen there.
    Some of the early calculations now do not fully take into 
account some of these benefits. That is why there is a second 
generation of the EPRI report that will be coming up. I think 
those things will be reflected much better as we are able to 
incorporate these into the fuel performance calculations.
    Senator Barrasso. Thank you so very much, all of you.
    Senator Carper.
    Senator Carper. When my sister and I were little kids 
growing up in Danville, Virginia, sometimes our family listened 
to the news on ABC radio, a guy named Paul Harvey. We were just 
little kids. When he finished the first part of his news, he 
would say, page 2 and go on to the rest of the news, and 
finally, page 3.
    I want to ask you about page 2. There have to be some smart 
folks around this country who are looking at this technology, 
accident tolerant fuels, and also what Christina talked about 
over at her company, and they are saying that makes no sense, 
that is not very smart, that is not a good investment of 
taxpayer dollars. Why would we do that?
    I want to ask one or more of you to explain those arguments 
against going down this path and then rebut them. Lay out 
briefly the arguments against this technology and rebut them, 
one or more of you, please. I do not care who goes first.
    Ms. Taylor. I don't know that I can fully address that 
question. However, one concern certainly is the ability to 
develop and license these quickly enough to make a difference 
in the existing reactor lifetime plants are currently licensed 
to. There is concern that can these be licensed quickly enough?
    Senator Carper. Others, please?
    Mr. Williams.
    Mr. Williams. Another concern is that it is going to 
increase the cost of the fuel that we purchase for our plants 
as we deploy new technologies. That is why the safety, and 
therefore the economic benefits analysis, are important as we 
try to make the business case that this is in the best interest 
of our customers and results in an overall lower cost.
    Senator Carper. Thanks.
    Ms. Back.
    Ms. Back. I would like to point out that we are in a new 
world where materials are understood better. We can make 
parallel improvements, and calculations can be taken into 
account to really leverage the amount of data to help us 
understand the behavior of the fuel.
    The concern is that it will take too long to incorporate 
these new materials. Really, the rebuttal is that if we do not 
do this, we will not be able to make cost competitive nuclear 
energy.
    We will not be able to take advantage of new engineering 
and science that has happened that, for instance, changes your 
phone from something that used to be a rotary dial that is now 
in everybody's pocket, which is really a little computer.
    There are advantages in new technologies that are worth 
waiting for and worth investing in. In this case, because we 
can do parallel advances in the modeling, licensing, and 
technology, all of these can come together if we work well 
together.
    Senator Carper. Thank you.
    Second, I want to address work force.
    I will start with you, Mr. Furstenau.
    The NRC will recruit the talent it needs to keep up with 
the new nuclear technology. What more could or should Congress 
do to help overcome any skill gaps you are aware of?
    Mr. Furstenau. Thank you for your question, Senator Carper.
    I think the work force planning is very important; how are 
we going to be ready for this in the future? I agree.
    At the NRC, we have been doing strategic work force 
planning exercises to adapt to that with an aging work force in 
our own agency and the outlook ahead for what may be coming 
down the line with accident tolerant fuel or other advanced 
reactor concepts. We need to recruit that talent.
    We are doing, like I said, strategic work force planning 
exercises. There is the Integrated University Program that 
NNSA, DOE, NRC, and Duke do complementary work on. Those types 
of activities are important to grow that work force in the 
future.
    Senator Carper. Thank you, sir.
    Dr. Back, as someone who works for a company that is a 
client of the NRC, do you feel the agency has the necessary 
work force to review the new technologies that you described to 
us today or does more need to be done?
    Ms. Back. I think it is a challenge, because the new 
material and new technologies require new learning, but there 
is a very eager and young group of engineers, nuclear 
engineers, and scientists that really do want to make a 
difference to clean energy.
    I think the work force is eager to try and engage and put 
together a licensing plan as well as develop the technology. 
The skills that are needed I think can be found as long as we 
work together to understand the material and to show the data. 
The NRC has to make their independent judgment of the data.
    We need to put together plans that take into account these 
different behaviors. I think those are challenging questions 
that the younger generation is eager to adopt and get involved 
with. I think there will be people who can fill those skill 
gaps.
    Senator Carper. When I come back, I would like to ask some 
questions about Halden, the test reactor and how the U.S. 
Government is going to fill the gap when Halden is no longer an 
option. Thank you.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Welcome, all of you, and thank you for being here.
    I am very interested in the prospect of advanced reactor 
concepts that hold the promise of being able to repurpose spent 
nuclear fuel. At present, we really do not have a plan for the 
spent nuclear fuel stockpiles.
    There are technologies emerging that would appear to be 
able to--and are, in some cases, asserted to be able to 
repurpose that stockpile and make some positive use of it. For 
instance, General Atomics has a design for an energy multiplier 
module that explores this potential.
    I am wondering if I could get your comments on how far we 
are in that direction and whether there are some early positive 
indicators about nuclear technologies that could repurpose 
existing nuclear waste stockpiles.
    Why don't we go right across?
    Ms. Back. Thank you for the question.
    The EM \2\ Energy Multiplier Module is actually designed so 
that it can burn light water waste as well as its own waste. We 
really do not look at it as waste; we look at it as spent 
nuclear fuel.
    In the case of light water reactors, 95 percent of the 
material that is in the fuel rod is actually Uranium 238, which 
cannot burn. That is why you need an advanced reactor, in this 
case a fast reactor, so that you can burn that material.
    In that case, you can take a light water reactor core, do a 
process to remove the fission products, and then reform that 
fuel, and in a sense, recycle it. It is done with a process 
which is not the conventional reprocessing. It is a dry 
process.
    That process has been demonstrated. Canada and Korea have 
different aspects of it that have been successful. I think this 
can be incorporated so that we generate new fuel cores for EM 
\1\ or some advanced reactor. It burns over its period of time, 
recycles, and over some 200 years, you can get rid of all of 
the geological waste that would be in the light water reactor 
spent fuel rod.
    Senator Whitehouse. Mr. Williams, do you have anything to 
add?
    Mr. Williams. At Southern Nuclear, we are obviously paying 
attention to the advanced reactor technologies and staying 
abreast of the claims of those. At this time, we have not 
pursued any action there.
    Senator Whitehouse. Ms. Taylor.
    Ms. Taylor. I cannot speak to any specific design, but I 
will say that in the advanced reactor space, similar to the 
accident tolerant fuel space, many companies are innovating 
with different approaches. It is an area where we see a lot of 
early career people contributing as well.
    Senator Whitehouse. Mr. Furstenau.
    Mr. Furstenau. The NRC is open to review new and innovative 
designs as vendors prepare for that.
    Senator Whitehouse. In the Committee, we have cleared the 
Nuclear Innovation and Modernization Act, which is now running 
hotlines for passage on the Senate floor. Senators Barrasso, 
Inhofe, Crapo, Booker, and myself are the original co-sponsors.
    Senator Crapo and I also have the Nuclear Energy Innovation 
Capabilities Act, which has passed the Senate by unanimous 
voice vote.
    The first bill would reform the NRC licensing process to 
open it up to more technologies than the light water reactors. 
The second would help facilitate collaboration between the 
private sector and our National Labs toward the development of 
these technologies.
    We also just passed in the Senate a third bill that I did 
with Senators Crapo and Alexander that would allow and fund the 
Department of Energy to use spent Navy fuel for research in 
these advanced nuclear reactor technologies.
    Do you see those three measures as positive steps in 
freeing up the regulatory authority and the research capability 
to move forward in this space of potential reactors that could 
use our existing nuclear spent fuel stockpile as fuel, recycle, 
or reuse it?
    Start the other way with Mr. Furstenau first, and we will 
go across.
    Mr. Furstenau. Senator Whitehouse, I really cannot comment 
on pending legislation from an NRC standpoint.
    Senator Whitehouse. Fair enough.
    Ms. Taylor. We are seeing some very positive results with 
the innovative companies working together with the National Lab 
capabilities to move a lot of technologies forward.
    Senator Whitehouse. I think actually we are seeing kind of 
a signal response thing. The National Labs have stepped forward 
more. Seeing this legislation going forward and seeing its 
support, they are actually a bit ahead of the actual bill, 
which is a good thing. It is a good signal response.
    Mr. Williams. Yes, sir, absolutely. Southern Nuclear 
believes that any legislation that promotes innovation in 
nuclear is a positive thing and will benefit the industry 
overall.
    Ms. Back. I absolutely think it helps because by nature, 
nuclear energy needs to be conservative because we need to be 
safe, and we want to keep the gold standard of the NRC.
    That means that we have to change the regulations and the 
ways we assess materials and develop the processes to meet the 
need of bringing in new technologies. That means looking at how 
we characterize the materials, developing new regulations, 
which are not now based on a deterministic measurement over 30 
years of data.
    We have power in the computing codes that has been brought 
to every other area. For instance, in developing your cars and 
planes, all of those use modeling and simulations. This is 
something where I think the regulations need to be accelerated 
and changed. I think the legislation helps encourage 
cooperation among the National Labs, the utilities, NRC, and 
all of us. All of that is absolutely necessary for it to go 
forward.
    Senator Whitehouse. Thank you, Chairman. Again, thank you 
for your support on these pieces of legislation.
    Senator Barrasso. Thank you for your leadership as well. It 
has been a good, cooperative effort.
    Senator Carper, we were talking about what happened with 
the Halden test reactor. I am going to ask a couple questions, 
and I know you have a couple as well. I am going to start with 
Ms. Taylor.
    In June the organization overseeing the Halden test reactor 
in Norway announced it would permanently close the reactor. The 
reactor would have provided critical scientific data necessary 
for licensing of accident tolerant fuels.
    In July the Electric Power Research Institute participated 
in a Department of Energy workshop at the Idaho National Lab. 
The workshop assessed how to fill the gaps in testing capacity 
that closure of the Halden reactor has left behind.
    Could you talk about what the primary gaps in testing 
capacity were that were identified, and what can we do to fill 
the gaps?
    Ms. Taylor. I can address that to some extent.
    The Halden test reactor project is more than just a 
facility. It is a facility that had been a multinational 
collaboration to fund and plan testing. The reactor had some 
unique capabilities, two of which were the ability to test the 
large number of specimens in parallel, so it was very large for 
a test reactor. It also had some looped capabilities.
    Many of the stakeholders have come together. You mentioned 
the July workshop. Idaho National Lab was the place to kind of 
convene what the need was. A game plan has been laid out to 
provide many of those capabilities through additional 
capabilities at Idaho.
    Senator Barrasso. Are there policies perhaps that the 
Department of Energy, the Nuclear Regulatory Commission, or 
even Congress should consider to try to fill some of these 
testing gaps, or do you think we will be OK as we are heading?
    Ms. Taylor. I cannot really address the policy issues.
    Senator Barrasso. OK.
    Mr. Furstenau, what steps is the NRC taking to ensure that 
the Halden closure does not really slow the progress on 
licensing the accidental tolerant fuels?
    Mr. Furstenau. At the NRC, we also participated in the 
workshops at the Idaho National Lab. At this point, we think 
there is no significant impact on the current test plans as we 
know. I am confident that the Department of Energy, the 
capabilities at the DOE sites, and possibly the universities 
will really fill that gap in the longer term.
    Senator Barrasso. By history, before joining the NRC in 
your current position, you spent years at the Department of 
Energy, so you have a pretty good understanding of what the 
capacities are. You feel they are going to be able to fill 
this?
    Mr. Furstenau. Yes, sir.
    Senator Barasso. OK. Thank you.
    Senator Carper, do you have additional questions?
    Senator Carper. I do have a few. Thanks, Mr. Chairman.
    Again, thanks very much for being with us today.
    Mr. Williams, 10 or so years ago, we were talking about at 
least 25 brand new light water reactors being built in this 
country. Do you remember that? I do.
    Mr. Williams. Yes.
    Senator Carper. All were expected to come online maybe this 
year or soon thereafter. In reality, our Nation is only 
building now, as we know, two new light water reactors. Those 
two are being built in Georgia by your company.
    The effect of the Westinghouse bankruptcy on the nuclear 
industry is troubling for us, and I am sure for you and others. 
Can you take a moment and tell us how are things going at 
Vogtle and what are some of the lessons learned that might help 
the next generation of nuclear power?
    Mr. Williams. Senator, I appreciate your question.
    Unfortunately, in my role, I focus on our operating fleet 
of reactors and am not aware of all of the issues associated 
with the project. We would be happy to respond to your question 
in writing.
    Senator Carper. Does anyone have any insights briefly in 
this regard? I think it is a pretty good question, better than 
most of my questions. Does anyone else have any insight you 
would like to share?
    [All respond in the negative.]
    Senator Carper. A response for the record from Mr. 
Williams, but others would be welcomed.
    Mr. Furstenau, with respect to NRC planning for accident 
tolerant fuels, the NRC's draft plan on accident tolerant fuels 
states, I believe, that the agency will use applicant provided 
data or DOE data to determine the safety of a concept and that 
the agency will not perform its own independent testing.
    Would you elaborate on this point? Does the NRC do this in 
other circumstances? Why does it now make sense to do it for 
accident tolerant fuels?
    Mr. Furstenau. Senator, you are correct about the project, 
the current plan does not. The assumption is being made that we 
will not do our own confirmatory testing. However, in the 
testing programs that are developed by the vendors and 
industry, we will use data that comes out of that testing 
program and independently look at that and review it from a 
confirmatory analysis standpoint.
    However, at this point in time, we do not see a need for 
additional confirmatory testing on these near-term concepts.
    Senator Carper. Thank you.
    Dr. Back, back to you. As I mentioned in my statement, 
extreme weather events are expected to be more frequent and 
more extreme due to climate change. Already nuclear power has 
proven to be quite resilient in this country during these 
extreme weather events. We are going to be closely watching and 
be in close step with the NRC to make sure that is the case 
during Florence.
    Would you like to take a moment and discuss how the 
technologies your company is developing will allow nuclear 
power to be even more resilient and safe during extreme weather 
events like Florence and those that follow?
    Ms. Back. Yes. Thank you.
    As you know, nuclear power performed very well during the 
Harvey event. There are already advantages in nuclear energy, 
for instance, of having all the fuel onsite. You do not have 
pipelines or electricity lines.
    For the advanced reactor, there has been a lot of thought 
along making them more resilient. One, in particular, is the EM 
\2\ that we envision is a smaller, more compact reactor. 
Importantly, it is underground so there is protection from 
things like Florence.
    There are passively safe systems and built in redundancies 
that are consistent with what are typical NRC regulations so 
that we make sure it is safe in case of loss of power. For 
instance, there is an important way that the power conversion 
unit works with cooling and kicks in with natural convection, 
if that does not pan out, if there is total loss of 
electricity.
    All of those aspects are thought through and incorporated 
into the reactor as well as the other efficiencies to be able 
to run the fuel at higher utilization so that you actually do 
not need to access the core for 30 years.
    Senator Carper. Thank you. I have one more.
    This is kind of a wrap up question. I am going to ask each 
of you on the panel to respond to this question if you would.
    Mr. Furstenau, if you would go first.
    If you had one piece of parting advice to give to us on the 
Environment and Public Works Committee with respect to advanced 
nuclear fuels, what would be that advice?
    Mr. Furstenau. I think, in my opinion, it would be we all 
need to be open and adaptive to enabling new technologies like 
ATF and advanced reactor concepts that have the potential to 
make nuclear power even safer.
    Senator Carper. Thank you.
    Ms. Taylor.
    Ms. Taylor. I agree. Continuing to encourage innovation in 
this space which has not always been innovative is yielding new 
options.
    Senator Carper. How should we express that encouragement?
    Ms. Taylor. I do not have any suggestions.
    Senator Carper. Really? All right.
    Mr. Williams.
    Mr. Williams. I think the way to encourage it is to 
encourage the collaboration between industry and public-private 
partnerships working together. This is a great example of 
collaboration between the Department of Energy, the fuel 
vendors, the utilities, and the Electric Power Research 
Institute to rapidly advance an innovation to deployment.
    Senator Carper. Thank you.
    Dr. Back.
    Ms. Back. My overriding concern is that we need to have 
data, and that means irradiations, something like the advanced 
test reactor at Idaho National Lab and as you were asking about 
in Halden.
    Those are expensive and need to be done well and be 
instrumented so that we get the maximum amount of data so we 
can push forward and make sure we have all the information 
needed to make sure these materials are safe and perform as 
they behave.
    We need a prioritization and maybe another look at what we 
can do to make more opportunities available for irradiation 
testing.
    Senator Carper. Let me ask, very briefly, would the other 
panelists respond to what Dr. Back just said?
    Mr. Furstenau. I think her point on needing irradiation 
test data when you then use modeling and simulation codes, you 
need to have data to verify those models and codes. I think 
especially for the concepts like General Atomics referred to, 
you do need some of that material that has not been used 
before. You need that test data to help validate it. It also 
helps with the licensing process as well as the safety case for 
the licensees.
    Senator Carper. Any other comment in response to what she 
said?
    Ms. Taylor. Just to understand how the fuel behaves in the 
whole system of the plant, that data is needed to properly 
model the behavior that you would expect.
    Senator Carper. Mr. Williams, anything?
    Mr. Williams. No.
    Senator Carper. This has been timely and helpful. As the 
storm bears down, this reminds us all the more that extreme 
weather has been coming our way for some time, and it ain't 
going to stop. We have to figure out how to respond to it, not 
to just address the symptoms of the problem but also the root 
cause of the problems creating all this bad weather for our 
country and our world. This could be part of the solution, not 
the whole solution but part of the solution. We welcome your 
input today.
    Thank you so much.
    Senator Barrasso. Thank you, Senator Carper, and Senator 
Whitehouse as well.
    Thank all of you for being here to testify. Other members 
may want to submit follow up questions for the record. The 
hearing record will be open for 2 weeks.
    I want to thank you all for being here, for your time, and 
your testimony.
    This hearing is adjourned.
    [Whereupon, at 11:15 a.m., the Committee was adjourned.]

                                 <all>
</pre></body></html>
